No. 20-5485

IN THE SUPREME COURT OF THE UNITED STATES

 

MAURICE Moss, PETITIONER
Vv.

STATE OF FLORIDA, RESPONDENT.

CERTIFICATE OF SERVICE OF REPLY BRIEF
IN SUPPORT OF CERTIORARI

CAREY HAUGHWOUT
Public Defender

Paul Edward Petillo
Assistant Public Defender
Counsel of Record

Office of the Public Defender
Fifteenth Judicial Circuit of Florida
421 Third Street

West Palm Beach, Florida 33401
(561) 355-7600
ppetillo@pd15.state.fl.us
appeals@pd15.state.fl.us
I HEREBY CERTIFY that I am a member of the Bar of the Supreme
Court of the United States and represent Petitioner in this cause; that all
parties required to be served with the Reply Brief in Support of Certiorari
have been served pursuant to Rule 29.5, Rules of the Supreme Court of the
United States, by sending a true and accurate copy thereof, by first class U.S.
Mail and by email, addressed to the following parties or their counsel, on 6
November 2020:

Amit Agarwal
Solicitor General
amit.agarwal@myfloridalegal.com

Jeffrey Paul DeSousa
Chief Deputy Solicitor General
jeffrey.desousa@myfloridalegal.com

Office of the Attorney General
PL-01 The Capitol
Tallahassee, FL 32399-1050

Respectfully submitted,

CAREY HAUGHWOUT

Public Defender

15th Judicial Circuit of Florida
421 Third Street

West Palm Beach, Florida 33401
(561) 355-7600

(ax Zbl
Paul Edward Petillo

Assistant Public Defender
Counsel of record
